APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion and Judgment in the United
States Court of Appeals for the
Eleventh Circuit
(March 17,2020) . . . . . . . . . . . . . . App. 1
Appendix B Order Denying Plaintiff’s Motion for
New Trial in the United States
District Court Southern District of
Florida
(August 14, 2018) . . . . . . . . . . . . App. 17
Appendix C Final Judgment in the United States
District Court Southern District of
Florida
(May 31, 2018). . . . . . . . . . . . . . . App. 48
Appendix D Order Denying Petition for Rehearing
and Rehearing en banc
(May 12, 2020). . . . . . . . . . . . . . . App. 50
Appendix E Transcript Excerpts in the United
States District Court Southern
District of Florida Fort Pierce Division
(June 28, 2018) . . . . . . . . . . . . . . App. 52

App. 1

APPENDIX A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13902
D.C. Docket No. 2:16-cv-14072-RLR
[Filed: March 17, 2020]
__________________________________________
VIOLA BRYANT,
)
)
Plaintiff-Appellant,
)
)
versus
)
)
KEN MASCARA, et al.,
)
)
Defendants-Appellees.
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Florida
Before MARTIN, GRANT, and LAGOA, Circuit Judges.
MARTIN, Circuit Judge:
On January 14, 2014, Gregory Hill, Jr., was shot
and killed in his home garage by St. Lucie County
Sheriff’s Office Deputy Christopher Newman. Viola
Bryant, Mr. Hill’s mother, brought a lawsuit on his

App. 2
behalf against Deputy Newman and St. Lucie County
Sheriff Ken Mascara in his official capacity. A jury in
the Southern District of Florida found Deputy Newman
not liable under 42 U.S.C. § 1983 and found that
Sheriff Mascara was only 1% responsible for the
shooting. As a result, Ms. Bryant recovered nothing
from the lawsuit. She now appeals, raising a number of
objections to the conduct of the trial.
After careful review, and with the benefit of oral
argument, we reverse and remand for a new trial.
I.
In January 2016, Ms. Bryant, acting as
representative of Mr. Hill’s estate, filed a complaint in
the Nineteenth Judicial Circuit Court in St. Lucie
County, Florida, against Sheriff Mascara and Deputy
Newman. The complaint alleged violations of the
Fourth and Fourteenth Amendments pursuant to 42
U.S.C. § 1983, as well as two state law claims for
negligence and a state law claim for battery. The
defendants removed the case to the District Court in
the Southern District of Florida.
Before trial, Ms. Bryant moved pursuant to Federal
Rules of Evidence 401, 403, and 404(b) to suppress
evidence that Mr. Hill was on probation. Ms. Bryant
pointed out that, at the time of the shooting, Deputy
Newman did not know that Mr. Hill was on probation.
Thus, she argued that evidence of his probationary
status was not relevant to whether Newman’s use of
force was reasonable. She also argued that this
evidence was unduly prejudicial under Rule 403 and
was inadmissible character evidence under Rule 404(b).

App. 3
The District Court denied the motion, reasoning that
“Mr. Hill’s probation status could add credibility to the
Defendant Newman’s claim that Mr. Hill opened the
garage door with a gun in his hand and then slammed
the garage door down because having a gun would
violate his probation.”
Trial began on May 17, 2018, and lasted six days.
The parties do not dispute that the following facts were
proved at trial: On January 14, 2014, at approximately
3:15 p.m., Deputy Newman shot and killed Mr. Hill in
Hill’s home garage. Earlier that day, Mr. Hill had been
in his garage listening to music. Responding to a noise
complaint from a parent at the elementary school
across the street, Deputies Newman and Edward Lopez
arrived at Mr. Hill’s residence. Upon arriving at Mr.
Hill’s home, the deputies attempted to contact its
occupants. While Deputy Newman knocked on the front
door of the house, Deputy Lopez knocked on the garage
door. Mr. Hill then opened his garage door.
The principal factual dispute at trial was whether
Mr. Hill had a gun in his hand when he opened the
garage door. Both Deputy Lopez and Deputy Newman
testified that he did. Specifically, Deputy Lopez
testified that, after he knocked on the garage door, Mr.
Hill opened the garage door with his left hand to a
point “[r]ight above [his] head.” As Mr. Hill raised the
garage door, Deputy Lopez looked inside and saw a gun
in Hill’s right hand. Deputy Lopez testified that he was
about three feet away from Mr. Hill when he saw the
gun. When he saw the gun, Deputy Lopez yelled, “gun,
gun, gun, drop the gun.” He said that Mr. Hill “started
to raise the gun in [his] direction.” Deputy Lopez

App. 4
“started retreating very fast and withdrawing [his]
weapon from the holster,” at which point he heard
Deputy Newman say, “Hey” to Mr. Hill. At about that
time, Mr. Hill started to bring the garage door down.
As Deputy Lopez backed away from the garage door, he
heard shots ring out. Deputy Lopez said he never saw
Mr. Hill point the gun at either deputy.
Deputy Newman testified that he was standing by
the front door of Mr. Hill’s house when Hill opened the
garage door. Deputy Newman said he looked over and
saw Mr. Hill with a gun in his hand. He immediately
yelled, “gun, gun” and drew his firearm. He said he
then yelled “drop the gun.” Deputy Newman said he
thought Mr. Hill was going to shoot Deputy Lopez so he
yelled, “hey” to get Hill’s attention. Mr. Hill then
looked away from Deputy Lopez and at Deputy
Newman and “started to raise the gun and bring the
door down.” As the door was coming down, Deputy
Newman could “still see [Mr. Hill’s] legs” though he
“lost sight of the gun as the gun was traveling up.”
Deputy Newman then fired four shots through the
garage door, killing Mr. Hill.
Mr. Hill’s daughter, Destiny, also testified.
Destiny’s elementary school was located directly across
the street from Mr. Hill’s home. At the time of the
shooting, Destiny was sitting on a bench in front of the
school waiting to be picked up by her uncle. She had a
clear view of the house. She said that when the police
came she saw Mr. Hill, who was sitting in a chair
inside the garage, stand up and close the garage. She
said he was not holding anything in his hands when he
closed the garage door.

App. 5
Niles Graben, an employee of the Florida
Department of Corrections, was called to testify that
Mr. Hill was on probation at the time of his killing, the
terms of which prohibited him from consuming alcohol
and from possessing a firearm. Dr. Linda O’Neil, an
associate medical examiner for the State of Florida,
testified that at the time of his death, Mr. Hill’s blood
alcohol content could have been as high as .390 grams
per deciliter. The District Court gave the following
limiting instruction as to Mr. Hill’s probationary
status: “Ladies and gentlemen, as you [have] heard . . .
Mr. Hill was on probation. This evidence is only
admissible to the extent you think it is relevant to Mr.
Hill’s actions on the date of the incident. It is not to be
considered for any other purpose.”
The District Court also permitted Mascara and
Newman to display to the jury the Kel-Tec handgun
found on Mr. Hill’s person after the shooting. Over Ms.
Bryant’s objection, Sergeant Edgar Lebeau performed
a demonstration of placing the gun in the back pocket
of Mr. Hill’s shorts.
After the close of evidence, the jury determined that
Deputy Newman did not intentionally commit acts that
violated Mr. Hill’s right to be free from excessive force.
The jury determined that Sheriff Mascara’s negligence
was a legal cause of Mr. Hill’s injuries, but found that
because Hill was under the influence of alcohol, he was
more than 50% at fault for his injuries. It held that the
total amount of damages sustained by the estate of Mr.
Hill was one dollar for funeral expenses. It also
awarded one dollar in damages to each of Mr. Hill’s
three minor children. The District Court entered final

App. 6
judgment in favor of Sheriff Mascara and Deputy
Newman.
Ms. Bryant then filed a motion for a new trial,
which the District Court denied. This is Ms. Bryant’s
timely appeal.
II.
We review for abuse of discretion the District
Court’s evidentiary rulings, including decisions
regarding the admission of evidence of prior crimes
under Federal Rule of Evidence 404(b). Williams v.
Mast Biosurgery USA, Inc., 644 F.3d 1312, 1316 (11th
Cir. 2011); United States v. Ramirez, 426 F.3d 1344,
1354 (11th Cir. 2005) (per curiam). We will reverse and
remand for a new trial only where “substantial
prejudice” resulted from the District Court’s abuse of
discretion. Brochu v. City of Riviera Beach, 304 F.3d
1144, 1155 (11th Cir. 2002).
III.
On appeal, Ms. Bryant claims that the District
Court made a number of evidentiary errors at trial.
Here we need address only one, which independently
warrants reversal and remand for a new trial. That is
the admission of evidence of Mr. Hill’s probationary
status at the time of his shooting.
A.
Before trial, Ms. Bryant moved to exclude evidence
of Mr. Hill’s probationary status, arguing that it was
irrelevant, unfairly prejudicial, and constituted
inadmissible character evidence. The District Court

App. 7
admitted the evidence, finding that it was “relevant to
explain Mr. Hill’s actions” on the day of the shooting
because it “could add credibility to . . . Defendant
Newman’s claim that Mr. Hill opened the garage door
with a gun in his hand and then slammed the garage
door down because having a gun would violate his
probation.” However, the District Court did not admit
evidence of the nature of the underlying offense for
which Mr. Hill was serving a probationary term.
Beyond that, the judge instructed the jury that Mr.
Hill’s probationary status was only relevant to his
actions on the day of the shooting. The District Court
also denied Mr. Hill’s motion for a new trial on this
basis. It held that Mr. Hill’s probationary status was
relevant because there was a dispute “regarding
whether Mr. Hill had the gun in his hand when he
answered the door.” Because the terms of Mr. Hill’s
probation prevented him from being intoxicated or
possessing a firearm, the Court concluded Mr. Hill’s
probationary status “was relevant in order to add
credibility to Defendant Newman’s version of the
events” that Mr. Hill opened the garage door with the
gun in his hand and closed the garage door in order to
avoid being found in violation of his probation.
The District Court abused its discretion in
admitting this evidence. It was prejudicial and not
relevant to any disputed material fact. Federal Rule of
Evidence 404(b)(1) prohibits the admission of
“[e]vidence of a crime, wrong, or other act . . . to prove
a person’s character in order to show that on a
particular occasion the person acted in accordance with
the character.” However, Rule 404(b)(2) provides that
such evidence “may be admissible for another purpose,

App. 8
such as proving motive, opportunity, intent,
preparation, plan, knowledge, identity, absence of
mistake, or lack of accident.” Fed. R. Evid. 404(b)(2).
Evidence that is admissible under Rule 404(b)(2) must
still “possess probative value that is not substantially
outweighed by its undue prejudice and must meet the
other requirements of [R]ule 403.” United States v.
Beechum, 582 F.2d 898, 911 (5th Cir. 1978) (en banc).1
Thus, evidence of past wrongdoing must withstand a
two-part test to be admitted: (1) it must be relevant to
an issue other than the defendant’s character and (2) it
must have probative value that is not substantially
outweighed by its undue prejudice. See United States
v. Terebecki, 692 F.2d 1345, 1348 (11th Cir. 1982);
United States v. Ellisor, 522 F.3d 1255, 1267 (11th Cir.
2008).
Evidence of Mr. Hill’s probationary status was not
relevant to any issue other than Hill’s character. It
therefore had no permissible probative value. Evidence
is relevant if it has “any tendency to make a fact more
or less probable than it would be without the evidence”
and “the fact is of consequence in determining the
action.” Fed. R. Evid. 401. Here, the task of the jury
was to determine whether Deputy Newman’s use of
force was reasonable in light of what he knew, or
reasonably should have known, at the time of the
shooting. See Lee v. Ferraro, 284 F.3d 1188, 1200 (11th
Cir. 2002) (holding that, in determining whether an
1

In Bonner v. City of Prichard, 661 F.2d 1206 (11th Cir. 1981) (en
banc), this Court adopted as binding precedent all decisions of the
Fifth Circuit handed down prior to the close of business on
September 30, 1981. Id. at 1207.

App. 9
officer’s use of force was reasonable, “we look at what
they knew (or reasonably should have known) at the
time of the act.” (quotation marks omitted)). And it
was undisputed that, at the time of the shooting,
Deputy Newman was responding to a noise complaint
and had no knowledge that Mr. Hill was on probation.
Mr. Hill’s probationary status was therefore not
directly relevant to determining the reasonableness of
Deputy Newman’s use of force in light of facts known
to Newman at the time of the shooting.
However, there are circumstances in which criminal
history evidence not known to law enforcement officers
at the time force was used may still be admissible
under Rule 404(b) to lend support to the officers’
factual claims. For example, in Knight ex rel. Kerr v.
Miami-Dade County, 856 F.3d 795 (11th Cir. 2017),
this Court affirmed the admission of evidence that
three victims of a police shooting were on probation at
the time of the shooting. Id. at 816–17. In dispute were
two drastically different accounts of the shooting.
According to the police officers, the decedents
accelerated their vehicle backwards and towards a
police officer in an attempt to flee before the officers
began to fire into the vehicle. Id. at 804. In contrast,
the plaintiff said that an officer shot into the car first.
This caused the driver’s body to slump forward and the
car to accelerate in reverse. Id. The fact that three of
the people in the car were on probation was relevant to
prove that the victims had a motive to “initiate, and
refuse to cease, flight when confronted by the [police]
officers” for fear of jeopardizing their probationary
status. Id. at 816. It therefore tended to support the
officers’ account of the shooting—that the decedents

App. 10
instigated the shooting by attempting to flee—over the
account given by the plaintiff.
No such circumstances were present here. Unlike in
Knight, there was no material fact in dispute that Mr.
Hill’s probationary status helped resolve. While the
District Court held it was probative of Mr. Hill’s motive
to quickly close the garage door, neither party disputed
the fact that Hill first opened, and then quickly closed,
his garage door before Deputy Newman opened fire.
Because there was no dispute that Mr. Hill closed the
garage door, evidence that he was on probation does
nothing to render more credible the testimony of
Deputies Newman or Lopez on that topic. Also, any
evidence about Mr. Hill’s motivation for closing the
door did not make it either more or less probable that
he did in fact do so.
Neither does evidence of Mr. Hill’s probationary
status help resolve any other facts which were in
dispute at trial. The two central factual disputes at
trial were whether Mr. Hill had a gun in his hand at
the time he opened his garage door and whether it was
possible for Hill to place the gun in his back pocket
before he was shot. But the fact that Mr. Hill was on
probation sheds no light on whether he had a gun in
his hand at the time he opened his garage door. Nor is
it probative of whether it was possible for him to place
the gun in his back pocket before he was killed. And
while the District Court found that Mr. Hill’s
probationary status may have motivated him to
attempt to hide his gun in his back pocket, there is a
problem with this reasoning. Mr. Hill’s probationary
status could not inform his motivation to conceal the

App. 11
weapon in the scenario described by the officers. No
reasonable person would wish to be seen pointing a gun
at police officers, regardless of their probationary
status. Thus, this evidence made neither party’s
account of the shooting more or less probable.
Since Mr. Hill’s probationary status did not lend
credibility to the deputies’ claims about his behavior
prior to the shooting, it was not relevant to any issue
other than Hill’s character. It therefore was not
properly admitted under Rule 404(b). Even if this
evidence were sufficiently relevant for purposes other
than establishing Mr. Hill’s character under Rule
404(b), it would still be inadmissible under Rule 403,
since its minimal probative value was substantially
outweighed by its prejudicial effect. See Terebecki, 692
F.2d at 1348–49. The “major function” of Rule 403 is to
“exclude[] matter of scant or cumulative probative
force, dragged in by the heels for the sake of its
prejudicial effect.” United States v. McRae, 593 F.2d
700, 707 (5th Cir. 1979). In evaluating probative value,
we consider how essential the evidence is to proving a
relevant point: evidence which is inessential and only
introduced to bolster other evidence will be weighed
less heavily against its potential prejudicial effect. See
United States v. King, 713 F.2d 627, 631 (11th Cir.
1983) (recognizing that “the more essential the
evidence, the greater its probative value”); United
States v. Mills, 704 F.2d 1553, 1560 (11th Cir. 1983)
(observing that unfairly prejudicial testimony is more
likely to violate Rule 403 when it was “introduced
merely to bolster the prosecution’s case-in-chief”).
Because Mr. Hill’s probationary status was only
relevant to prove a fact to which both parties agreed,

App. 12
its probative value was highly limited. In the following
section, we discuss why we came to conclude that the
prejudicial effect of this evidence was high and
substantially outweighed this minimal probative value.
B.
In evaluating whether an evidentiary decision at
trial affected the verdict, we consider, inter alia, the
prejudicial effect of the evidence, the closeness of the
factual disputes, and whether cautionary or limiting
instructions were given to the jury. Peat, Inc. v.
Vanguard Research, Inc., 378 F.3d 1154, 1162 (11th
Cir. 2004). Weighing these factors, we conclude that
this error was sufficiently prejudicial to warrant
reversal and remand for a new trial.
First, the admission of this evidence had a
substantial prejudicial effect. While the reason Mr. Hill
was on probation was withheld from the jury, the
simple fact that he was on probation led the jury to
believe that he had previously been convicted of a
crime. See United States v. Beck, 625 F.3d 410, 417
(7th Cir. 2010). What’s more, evidence that Mr. Hill’s
probation conditions prevented him from drinking
alcohol or possessing a firearm also invited the jury to
infer that he was actively violating the terms of his
probation at the time he was shot. Indeed, the
defendants made the fact that Mr. Hill was violating
the terms of his probation at the time of the shooting a
central piece of their defense theory, repeatedly
revisiting it over the course of their closing argument.
See U.S. Steel, LLC v. Tieco, Inc., 261 F.3d 1275, 1288
(11th Cir. 2001) (holding that substantial prejudice was
shown where the appellees had relied on erroneously

App. 13
admitted evidence “throughout the trial” and “notably”
during closing arguments).
The danger of such evidence is that the jury may be
swayed by the conclusion that Mr. Hill was a “bad
man,” and therefore more likely to point a gun at police
officers, instead of by the evidence before it. See United
States v. Avarello, 592 F.2d 1339, 1346 (5th Cir. 1979)
(holding, in the context of criminal prosecution, that
“the danger inherent in evidence of prior convictions is
that juries may convict a defendant because he is a ‘bad
man’ rather than because evidence of the crime of
which he is charged has proved him guilty”). Because
of this danger, such evidence is inherently prejudicial.
Beechum, 582 F.2d at 910 (noting the “inherent
prejudice” of evidence of prior criminal convictions).
This is why Rule 404(b) requires its exclusion unless it
is probative of a disputed, material fact other than
character or propensity.
Second, the District Court’s limiting instruction did
not sufficiently mitigate the prejudice resulting from
the admission of this evidence. We have held that
appropriate limiting instructions can “limit[] any
unfair prejudice” that might result from the proper
admission of evidence of prior criminal activity. See
Knight, 856 F.3d at 817. Here, the District Court
merely instructed the jury that Mr. Hill’s probationary
status was “only admissible to the extent that you
think it is relevant to Mr. Hill’s actions on the day of
the incident” and that it was “not to be considered for
any other purpose.” Given that Mr. Hill’s probationary
status had no relevance to resolving disputed factual
issues regarding his conduct on the day of the shooting,

App. 14
its introduction served no purpose and only resulted in
prejudice to Hill. And, even if the jury cabined its
consideration of Mr. Hill’s past conviction, by its own
terms this instruction still permitted the jury to
consider the fact that Hill was violating the terms of
his probation at the time he was shot. Thus, the
District Court’s instruction did not sufficiently limit the
unfair prejudice resulting from the introduction of this
evidence.
Finally, the evidence in this case was not so
one-sided as to render it “unlikely” or “remote” that the
jury could have been “swayed erroneously by the
wrongfully admitted evidence.” Alexander v. Fulton
County, 207 F.3d 1303, 1329–30 (11th Cir. 2000),
overruled on other grounds by Manders v. Lee, 338
F.3d 1304 (11th Cir. 2003) (en banc). Only three
witnesses testified to having seen the shooting of Mr.
Hill. Deputy Newman, a defendant, and his colleague
Deputy Lopez both testified that Mr. Hill had a gun in
his hand when he raised his garage door. But the third
witness, Destiny Hill, said she saw no gun. There was
also meaningful dispute over whether it would have
been possible for Mr. Hill to put the gun in his back
pocket between the time he closed the door and the
time of his death, which a reasonable jury could have
concluded called into question the version of events
offered by the defendants. One expert opined that Mr.
Hill would have had no motor function after his head
wound because the bullet “interrupted all of the nerve
traction, destroyed the connection of the upper brain
and the lower portion of the body, cutting the spinal
cord completely.” In sum, while we cannot say the jury
delivered a verdict against the great weight of the

App. 15
evidence, the evidence was not so overwhelming as to
render it implausible that evidence of Mr. Hill’s
probationary status affected the outcome of the trial.
IV.
The District Court abused its discretion in
admitting evidence of Mr. Hill’s probationary status at
trial, and this error resulted in prejudice to Ms.
Bryant’s case against Deputy Newman and Sheriff
Mascara. Because this error independently warrants
reversal, we need not reach Ms. Bryant’s other
arguments. We REVERSE and REMAND for further
proceedings consistent with this opinion.

App. 16
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
No. 18-13902
District Court Docket No.
2:16-cv-14072-RLR
[Filed: March 17, 2020]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate of
)
Gregory Vaughn Hill, Jr.,
)
)
Plaintiff - Appellant,
)
)
versus
)
)
SHERIFF KEN MASCARA, in his
)
official Capacity as Sheriff of St. Lucie
)
County, CHRISTOPHER NEWMAN,
)
an individual,
)
)
Defendants - Appellees. )
__________________________________________)
Appeal from the United States District Court for the
Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the
opinion issued on this date in this appeal is entered as
the judgment of the Court.
For the Court: DAVID J. SMITH, Clerk of Court
By: Jeff R. Patch

App. 17

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.:
2:16-CV-14072-ROSENBERG/REINHART
[Filed: August 14, 2018]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate of
)
GREGORY VAUGHN HILL, JR.,
)
)
Plaintiff,
)
)
v.
)
)
SHERIFF KEN MASCARA in his Official
)
Capacity as Sheriff of St. Lucie County
)
and CHRISTOPHER NEWMAN,
)
)
Defendants.
)
__________________________________________)
ORDER DENYING PLAINTIFF’S MOTION FOR
NEW TRIAL
This Cause is before the Court on Plaintiff’s
Motion for New Trial. DE 237. Defendants responded,
DE 247, and Plaintiff replied, DE 251. For the reasons
set forth below, the Court hereby denies Plaintiff’s
Motion for New Trial.

App. 18
I.

BACKGROUND

This case arises from an incident in which
Defendant Christopher Newman, a St. Lucie County
Sheriff’s Deputy, fatally shot Gregory Vaughn Hill, Jr.
through Mr. Hill’s garage door while responding to a
noise complaint. This case proceeded to trial on May
17, 2018 on two counts: an excessive force claim under
42 U.S.C. § 1983 against Defendant Newman and a
negligence claim against Defendant Sheriff Ken
Mascara in his Official Capacity as Sheriff of St. Lucie
County.
On May 24, 2018, the jury returned a verdict for the
Defendants. As to the § 1983 claim against Defendant
Newman, the jury found that Defendant Newman did
not use excessive force. DE 223 at 1. As to the
negligence claim, the jury found that there was
negligence on the part of Sheriff Ken Mascara in his
Official Capacity as Sheriff of St. Lucie County,
through his deputy Christopher Newman. Id. at 4. The
jury, however, also found that Mr. Hill was under the
influence of alcoholic beverages to the extent that his
normal faculties were impaired and, that as a result of
the influence of such alcoholic beverage, Mr. Hill was
more than 50% at fault for this incident and his
resulting injuries. Id. The jury found Sheriff Ken
Mascara, in his Official Capacity as Sheriff of St. Lucie
County, to be 1% negligent and Mr. Hill to be 99%
negligent for Mr. Hill’s injuries and awarded $1.00
each for funeral expenses and to each of Mr. Hill’s
three minor children. Id. at 5–6. Because of the finding
that Mr. Hill was under the influence of alcoholic
beverages to the extent that his normal faculties were

App. 19
impaired and that he was more than 50% at fault,
Plaintiff was not entitled to any damages under Florida
law. See Fla. Stat. § 768.36. Now before the Court is
Plaintiff’s Motion for New Trial.1
Before proceeding to its legal analysis, the Court
notes that the tragic events that led to this case,
coupled with the nature of the jury’s verdict,
understandably has elicited an emotional response.
The Court does not take this fact lightly. It is deeply
tragic that Mr. Hill lost his life; that Plaintiff, Ms.
Bryant, lost her son; that Ms. Hill’s fiancée lost her
fiancé and the father of her children; and that three
young children lost their father, following a noise
complaint. Nevertheless, the Court must analyze the
legal issues before it, under the applicable law, and
determine if any of them alone or cumulatively give
rise to a legal basis for a new trial.
II.

ANALYSIS

Federal Rule of Civil Procedure 59 states that Court
may grant a new trial “for any reason for which a new
trial has been heretofore been granted in an action at
law in federal court.” In her Motion for New Trial,
Plaintiff makes the following arguments: (1) defense
1

The Court notes that Plaintiff filed a Motion for Juror Interview
and Motion for Leave to File Additional Evidence in Support of
Plaintiff’s Timely Filed Motion for New Trial. DE 253. In that
Motion, Plaintiff sought leave of Court to interview the jurors
because Plaintiff argued that post-trial statements made by Juror
#6 raised questions of whether extraneous prejudicial information
was improperly brought to the jury’s attention and whether there
was a mistake made in entering the verdict on the verdict form. Id.
at 5. The Court denied the Motion. DE 258.

App. 20
expert Christopher Lawrence gave improper and
inconsistent testimony; (2) the Court issued erroneous
evidentiary rulings regarding the firearm and shorts
used as a demonstrative aid and Mr. Hill’s
probationary status; (3) defense witness Sergeant Kyle
King’s testimony was based on materially false facts
and Defendant Newman materially changed his
testimony based on evidence he heard during the trial;
(4) the jurors either did not understand the jury
instructions or intended their verdict to be punitive; (5)
the verdict is against the clear weight of the evidence;
and (6) the cumulative effect of the errors and
evidentiary rulings warrants a new trial. The Court
will address each argument in turn.
A. Defense Expert Christopher Lawrence
Plaintiff argues that “Defendants’ retained expert
witness, Christopher Lawrence’s contumacious
testimony created severe prejudice on the proceedings.”
DE 237 at 4. Plaintiff’s counsel points to the fact that
Mr. Lawrence asked Plaintiff’s counsel to speak up
when Mr. Lawrence did not ask Defendants’ counsel to
speak up on direct examination. Id. at 4–5. Plaintiff
also notes that when Plaintiff’s counsel asked Mr.
Lawrence for an accounting of costs of his services,
“Mr. Lawrence bellowed out his father had recently
passed away a ‘couple weeks’ prior and other questions
would be difficult to answer.” Id. at 5. Plaintiff’s
counsel states that this statement was unfair,
improper, and a lie, as Mr. Lawrence’s father had died
on April 10, 2018 which was more than a couple of
weeks before Mr. Lawrence’s May 23, 2018 testimony.
Id. Plaintiff states that Mr. Lawrence’s responses to

App. 21
Plaintiff’s counsel’s questions became increasingly
non-responsive. Id. at 5–6. Ultimately, Plaintiff argues
that “Mr. Lawrence’s non-responsive commentary,
repeated sudden and selective hearing loss, exhaustion,
and blaming of Plaintiff after a completely problem free
direct examination was not only a violation of Fed. R.
Evid. 702, but created such irreversible prejudice that
it warrants a new trial and sanctions.” Id. at 6.
Defendants respond that it is not surprising that
Mr. Lawrence did not ask Defendants’ counsel, Mr.
Bruce Jolly, to speak up as Mr. Jolly has a loud voice,
and points to Mr. Lawrence’s February 7, 2017
deposition in which Mr. Lawrence specifically informed
Plaintiff’s counsel of Mr. Lawrence’s hearing
limitations. DE 247 at 3. Defendants also argue that
the mention of the passing of Mr. Lawrence’s father is
a trivial argument and clearly not a sufficient ground
for a new trial. Id. at 3–4. Defendants state that “Mr.
Lawrence conducted himself professionally at all times
during the trial. This is further evidenced by the fact
that it was not until after the Plaintiff lost the trial
that claims of improper conduct on the part of this
witness are now being lodged.” Id. at 4.
The Court finds that nothing in Mr. Lawrence’s
testimony created prejudice on the proceedings. First,
the Court notes that it is not surprising that a witness
would have difficulty hearing one counsel but not
another for a variety of reasons including the volume of
counsel’s voice or counsel’s use of the microphone. Mr.
Lawrence told Plaintiff’s counsel about his hearing
limitation before cross-examination began, Trial Tr.,
May 23, 2018, at 50:21–23 (“I am going to remind you,

App. 22
please, he did a good job speaking up, my hearing is not
that great, I do not want to ask you to repeat
yourself.”), and had previously told him about his
hearing limitation at his February 7, 2017 deposition,
DE 241-1 at 2 (“A. Could I ask you to make sure you
speak up? Q. Yes. A. I hear what—I can hear people
speaking, but I don’t always hear clearly what has been
said. My hearing is not as good as it used to be. Q.
Okay. A. So I may ask you to repeat yourself.”).
Accordingly, the Court rejects Plaintiff’s argument that
Mr. Lawrence “feigned hearing loss when convenient.”
See DE 251.
Second, the Court agrees with Defendant that Mr.
Lawrence mentioning that his father had passed away
a few weeks before trial is not so prejudicial as to
warrant a new trial. Plaintiff’s counsel asked Mr.
Lawrence why Mr. Lawrence had not prepared an
invoice of his fees in the case prior to trial. Trial Tr.,
May 23, 2018, at 51:13–15. Mr. Lawrence stated that
his father had died and that he had not prepared his
invoice because he had been tending to other matters.
Id. at 51:16–20. The Court notes that Plaintiff’s counsel
did not move to strike Mr. Lawrence’s testimony
regarding the death of his father. The Court agrees
with Defendants that this testimony was somewhat
trivial and certainly did not create unfair prejudice to
warrant a new trial.
Third, the Court does not find that Mr. Lawrence’s
answers were non-responsive or that his testimony
prejudiced Plaintiff’s rights. During the crossexamination of Mr. Lawrence, Plaintiff’s counsel only
once sought the Court’s assistance as to the

App. 23
non-responsiveness of Mr. Lawrence’s testimony.
Plaintiff’s request for Court assistance occurred when
Plaintiff’s counsel asked Mr. Lawrence to step down
from the witness stand and demonstrate what Mr.
Lawrence understood Mr. Hill’s body mechanics were
at the time of the incident:
Q. Let me fast forward some. Could you step down,
please, and demonstrate what you know the
facts to be insofar as Mr. Hill’s body mechanics
at the time this happened?
A. Okay, clarify. That is a pretty broad statement.
Q. Certainly. You did this when you were on the
stand, but the stand was blocking you. I would
like you to step down here and show what you
understand Mr. Hill’s body mechanics were at
the time of this incident.
THE WITNESS: Is that okay, your Honor?
THE COURT: Yes, you may.
THE WITNESS: When I went to the scene, I
wanted to see what the garage door looked like
when it was opened and closed. I went to the scene
and I opened it and closed it. It binds, doesn’t roll
nice and smooth like other garage doors I have seen,
it is metal.
I looked to see if there is any evidence someone
backed a car against it. There is quite a bit of time
between when the event occurred -MR. PHILLIPS: Your Honor, this is nonresponsive.
I asked him to recreate Mr. Hill’s body mechanics.

App. 24
THE COURT: Can I ask our witness if you’d stand
where counsel is so both our court reporter can
better hear you and the jury can hear you and see
you. Thank you.
THE WITNESS: When I got there, the door bound,
as I pulled down on the door, my other hand wanted
to come up at the same time. It took effort to pull it
down, your other hand would come up like this. I
said, okay, I can see how it could play out.
BY MR. PHILLIPS:
Q. You can resume your seat.
Trial Tr., May 23, 2018, at 62:21–63:25. Plaintiff’s
counsel sought the Court’s assistance and then
continued with his cross-examination. The Court notes
that Plaintiff’s counsel never moved to strike Mr.
Lawrence’s testimony or made any argument to the
Court that Plaintiff did not have a full opportunity to
cross-examine the witness. There is certainly nothing
in this interaction that would warrant a new trial for
Plaintiff; there was no impairment of her substantial
rights.
B. The Court’s Evidentiary Rulings
Plaintiff argues that two of the Court’s evidentiary
rulings substantially prejudiced her. In assessing
evidentiary rulings already made by this Court, the
question is whether the admission of the evidence
affected Plaintiff’s substantial rights. “Error in the
admission or exclusion of evidence is harmless if it does
not affect the substantial rights of the parties.” Perry v.
State Farm Fire & Cas. Co., 734 F.2d 1441, 1446 (11th

App. 25
Cir. 1984) (citations omitted). Plaintiff bears the
burden of showing that the decision(s) affected her
substantial rights. Id. (citation omitted). First, she
argues that the Court erred in permitting the use as a
demonstrative aid of the firearm and shorts found on
Mr. Hill. Second, Plaintiff argues that the Court erred
in permitting the introduction of evidence that Mr. Hill
was on probation, even though the Court instructed the
jurors about the limited reason for which they could
consider Mr. Hill’s probationary status. The Court
addresses each argument in turn.
i.

The Firearm and Shorts Use as a
Demonstrative Aid

Plaintiff argues that Defendants disclosed less than
forty-eight hours before the trial that they were in
possession of and intended to use as evidence the gun
found in Mr. Hill’s pocket. DE 237 at 6. Plaintiff states
that Defendants never disclosed the gun in any of their
six Federal Rule of Civil Procedure 26(a) disclosures.
Id. at 7. Plaintiff also state that she was prejudiced
because Defendants’ witness “Sergeant Lebeau was
permitted to testify about the handgun and perform an
impromptu demonstration of placing the handgun into
the back-right pocket of Mr. Hill’s jean shorts.” Id.
Plaintiff states that it was improper for a lay witness
to perform this demonstration, especially without
advance warning to Plaintiff. Id. at 6–7.
Defendants respond that the Court has already
ruled regarding Defendants’ disclosure of the gun and
the shorts. DE 247 at 5. Defendants also argue that the
Court has broad discretion to permit demonstrations
that it believes will assist the jury. Id. (citing United

App. 26
States v. Rackley, 742 F.2d 1266, 1272 (11th Cir.
1984)). Defendants state that Sergeant Labeau’s
demonstration of the gun fitting in the pocket of Mr.
Hill’s shorts was appropriate to rebut Plaintiff’s
suggestion “that Mr. Hill never held the gun at any
point during his interaction with the deputies because
he would not have had the time nor the opportunity to
place the gun in his back pocket before being fatally
wounded.” DE 247 at 6.
The Court agrees with Defendants. Prior to the
trial, Defendants filed a motion to allow an unloaded
firearm in the courtroom as an exhibit during trial. DE
192. Plaintiff objected arguing that the gun was not
disclosed pursuant to Rule 26(a). DE 198. According to
Plaintiff, Plaintiff was completely unaware that
Defendants were in possession of the gun until less
than 48 hours before the start of trial; Plaintiff was
never given the opportunity to inspect the gun and
Plaintiff’s expert did not have an opportunity to
examine the gun; and utilizing the gun provided no
additional insight for the jury when there were
photographs available and would only prejudice
Plaintiff. Id.
Defendants replied that the fact that the Sheriff’s
Office seized the firearm as well as Mr. Hill’s clothing
had been well documented and was known to Plaintiff’s
counsel throughout the litigation. DE 205. Defendants
argued that they did disclose that they had the gun “in
a material respect through discovery or through the
Defendants’ Rule 26 disclosures.” Id. at 1. Defendants
pointed to various disclosures that they argued should
have informed Plaintiff that Defendants were in

App. 27
possession of the gun. Id. 1–2. For instance, they noted
that several of their Rule 26 disclosures listed the
reports, inventory returns and criminal investigative
materials associated with the shooting investigation.
Id. They also noted that Plaintiff listed the St. Lucie
County Sheriff’s Office Investigation Book in her Rule
26 disclosure; that investigation book included reports
of deputies stating what evidence was seized, including
the gun. Id. Defendants pointed to their 2017 Exhibit
Lists which had Evidence Lists as exhibits and stated
that Plaintiff did not object or inquire about these
exhibits. Id. at 3. Defendants also noted that during
the December 6, 2016 deposition of Sergeant Edgar
Lebeau, Plaintiff’s counsel inquired about whether the
physical evidence of the case would still be in the
Sheriff’s Office evidence room. Id. at 3–4. Sergeant
Lebeau did not know the answer but provided
Plaintiff’s counsel with the name of the person in the
Sheriff’s Office to whom Plaintiff’s counsel should
inquire. Id.
During the trial, Defendants’ counsel stated that it
was not seeking to have the gun and shorts admitted
into evidence but wanted to use them as demonstrative
aids. Trial Tr., May 21, 2018, at 9:3–6.
At the trial, the Court stated:
Federal Rule of Procedure 37(c)(1) [states
that] if the parties fail to identify witness as
required by 26(a) or (e), the party is not
allowed to use that information or evidence
on a motion unless the failure was justified
or harmless.

App. 28
Even if the gun was not disclosed as clearly
as it could have been under Rule 26, the Court
finds this is not prejudicial to Plaintiff because
Plaintiff’s counsel was on notice, therefore the
Plaintiff’s objection under Rule 37 is denied, and
Defendants are not prohibited from using the
gun under Rule 37.
The Court doesn’t have to make a
determination as to admissibility because it is
going to be used for demonstrative purposes, but
it does not mean it is coming in for evidence.
The gun has high probative value that
Deputy Newman saw Mr. Hill holding the gun.
The physical evidence would include what the
gun looked like, and its size could be relevant to
the jury in assessing Deputy Newman’s actions.
And then there is the issue of how and if the gun
could make its way into the back pocket, so that
clearly has been put out there, it is a relevant
issue. It is up to counsel how they want to argue
the issue. As far as being used for demonstrative
purposes, the Court will allow it.
Trial Tr., May 21, 2018, at 11:8–12:4. The gun was not
admitted into evidence but used as a demonstrative
aid. Accordingly, the Court need not determine
whether it should have been excluded under Federal
Rule of Civil Procedure 37(c)(1). See Fed. R. Civ. P.
37(c)(1) (“If a party fails to provide information or
identify a witness as required by Rule 26(a) or (e), the
party is not allowed to use that information . . . to
supply evidence . . . at a trial, unless the failure was
substantially justified or is harmless.) (emphasis

App. 29
added). The Court notes, however, that Defendants’
failure to explicitly disclose that the gun was in their
possession was harmless. Plaintiff was clearly put on
notice that Defendants collected the gun and shorts
following the incident and there was no indication to
Plaintiff that the gun and shorts ever left Defendants’
possession.
Additionally, it was proper to allow Sergeant
Labeau to demonstrate that the gun could fit into the
shorts pocket. “[A] trial court has broad discretion
regarding experiments it will allow in the presence of
the jury.” United States v. Rackley, 742 F.2d 1266, 1272
(11th Cir. 1984) (citation omitted). As the Court stated
at trial, the gun had a high probative value. Trial Tr.,
May 21, 2018, at 11–12. Throughout the trial, Plaintiff
argued that Mr. Hill never had the gun in his hand but
rather the gun remained in his pocket throughout the
interaction with the deputies. See, e.g., Trial Tr., May
17, 2018, at 214:2–10. Because questions were raised
about Mr. Hill’s ability to place the gun in his shorts,
the probative value of seeing that the gun fit into the
pocket of the shorts was high and there was no error in
allowing Sergeant Labeau to demonstrate that the gun
fit into Mr. Hill’s back pocket.
ii.

Mr. Hill’s Probationary Status

Plaintiff argues that it was error for the Court to
allow in any evidence of Mr. Hill’s probationary status
because the fact that Mr. Hill was on probation “was
not a known fact or circumstance confronting
Defendant Newman.” DE 237 at 9. Plaintiff argues that
evidence of Mr. Hill’s probationary status was
extremely prejudicial because it informed the jury that

App. 30
Mr. Hill was a past criminal. Id. at 13. Plaintiff also
notes that Defendants submitted evidence that at the
time of the shooting Mr. Hill was actively committing
a crime in that he was consuming alcohol and
possessing a firearm in violation of his probation. Id.
Plaintiff argues that “[t]he prejudicial impact of
admitting such evidence . . . confuse[d] the jury as to
the issues of the present 42 U.S.C. § 1983 and the
Negligence case.” Id. at 14. Plaintiff notes that the
Court issued the following limiting instruction: “ladies
and gentlemen, as you have heard, Mr. Hill was on
probation. This evidence is only admissible to the
extent that you think it is relevant to Mr. Hill’s actions
on the date of the incident. It is not to be considered for
any other purpose. What Mr. Hill was on probation for
is irrelevant and should not be considered by you.” Id.
According to Plaintiff, the Court’s “limiting instruction
did nothing to quell the prejudicial impact of informing
that Mr. Hill was a criminal. It also did not delineate
the relative inadmissibility probation had in the federal
versus state law claim.” Id. at 15.
Defendant responds that the evidence of Mr. Hill’s
probationary status was properly admitted because it
added credibility to Defendant Newman’s claim
regarding the manner in which Mr. Hill acted. DE 247
at 7 (relying on Escobedo v. Martin, 702 F.3d 388, 400
(7th Cir. 2012)).
The Court finds that the evidence of Mr. Hill’s
probationary status was relevant and that it was not
overly prejudicial, especially considering the Court’s
limiting instruction regarding the purpose for which
the information was being admitted. During trial, the

App. 31
parties fiercely disputed whether or not Mr. Hill had a
gun in his hand when he opened the garage door.
Plaintiff argued that Mr. Hill did not have the gun in
his hand, see, e.g., Trial Tr., May 17, 2018, at 214:2–10,
but that it was in Mr. Hill’s back pocket, which is
where it was found by law enforcement, Trial Tr., May
23, 2018, at 109:12–13 (“[T]he evidence is entirely
inconsistent with it being out of Mr. Hill’s pocket.”). To
support her argument, Plaintiff offered the testimony
of Earl Ritzline, a DNA expert who testified that the
gun had a low level mixture of at least three
individual’s DNA, id. at 109:2–11; the testimony of Dr.
Robert Anderson, a medical examiner who testified
that the shot to Mr. Hill’s brain would have rendered
him incapable of any motor function, Trial Tr., May 21,
2018, at 36:1–15; and the testimony of Mr. Hill’s
daughter, Destiny, who testified that her Mr. Hill was
not holding a gun, id. at 109:2–5.
Defendants’ theory of the case was that Mr. Hill
opened the garage door with the gun in his hand.
According to Defendants, when Mr. Hill saw that it was
law enforcement knocking on his door, he knew he was
in violation of two terms of his probation by being
intoxicated and possessing a firearm. See Trial Tr.,
May 23, 2018, at 155:5–24. Accordingly, Mr. Hill closed
the garage door in order to avoid being found in
violation of his probation. Id. (“[B]ecause Mr. Hill knew
he was on probation, had no business having a gun and
being under the influence of alcohol, his main concern
was getting that gun out of view, get it in his pocket,
put it away, and it was found in his back pocket. He
was able to put it there on his own.”). Defendants relied
on the testimony of Deputy Lopez that Mr. Hill was

App. 32
holding a gun when he opened the garage door, Trial
Tr., May 18, 2018, at 208:22–25; Defendant Newman’s
testimony that he saw Mr. Hill holding a gun when Mr.
Hill opened the garage door, Trial Tr., May 22, 2018, at
136:17–19; and the testimony of Niles Graben that Mr.
Hill was on probation and that his probation prohibited
the consumption of alcohol or the possession of a
firearm, Trial Tr., May 21, 2018, at 129:1–23. Because
of the dispute regarding whether Mr. Hill had the gun
in his hand when he answered the door, Mr. Hill’s
probationary status was relevant in order to add
credibility to Defendant Newman’s version of the
events.
The Court notes that this case is not unlike the case
of Knight v. Miami-Dade Cnty., 856 F.3d 795 (11th Cir.
2017). In that case, Miami-Dade police officers
attempted to perform a traffic stop on an SUV but the
driver did not stop the car. Id. at 803–04. Eventually,
the car stopped at a dead end and the officers exited
their car with guns drawn. Id. at 804. The parties
disputed what happened next. The defense theory was
that the driver of the car intentionally accelerated
backward towards the officers who had to move to
avoid being struck by the vehicle. Id. The officers then
shot at the vehicle, killing two of the occupants and
injuring a third. Id. The Plaintiff’s theory of what
happened was that, when the car was stopped, an
officer fired a single shot which hit the driver. Id. The
driver’s body then fell forward and the car began
accelerating backwards, causing the officers to shoot at
the vehicle. Id. The Eleventh Circuit affirmed the
District Court’s decision to admit the driver’s most
recent conviction in the § 1983 trial “because it was

App. 33
material to the defense theory that his earlier
conviction and his probation status caused him to
initiate, and refuse to cease, flight when confronted by
the officers.” Knight, 856 F.3d at 816. The Eleventh
Circuit further explained that:
As for [the driver’s] criminal history, the
evidence was plainly admissible under Rule
404(b) to establish his motive to flee from
Officers Robinson and Mendez. [The driver and
the passengers] were all on probation at the
time, and [the driver] had a probation hearing
the next day. Evidence of [the driver’s] most
recent conviction, for which he was then on
probation, was therefore probative of his motive
to flee from the officers: had he pulled over, he
would have been caught associating with other
people on probation, which might have
jeopardized his probationary status.
Id. at 816–17. In Mr. Hill’s case, evidence of Mr. Hill’s
probationary status was probative of his motive to close
the garage door and put the gun in his back pocket, in
order to avoid jeopardizing his probationary status.
Evidence of Mr. Hill’s probationary status was
probative of the defense theory of the case—that Mr.
Hill answered the garage door with a gun in his hand
and then placed it in his back pocket.
The introduction of Mr. Hill’s probationary status
was also not overly prejudicial. Federal Rule of
Evidence 403 states that “[t]he court may exclude
relevant evidence if its probative value is substantially
outweighed by a danger of . . . unfair prejudice.” To
limit the unfair prejudice of the evidence of Mr. Hill’s

App. 34
probationary status, the Court read the following
limiting instruction: “ladies and gentlemen, as you
have heard, Mr. Hill was on probation. This evidence is
only admissible to the extent that you think it is
relevant to Mr. Hill’s actions on the date of the
incident. It is not to be considered for any other
purpose.” Trial Tr., May 18, 2018, at 150:10–14. This
instruction limited the danger of any prejudicial effect
of the jurors knowing that Mr. Hill was on probation.
Accordingly, when weighing the probative value and
the danger of unfair prejudice, the Court finds that the
probative value of Mr. Hill’s probationary status was
not substantially outweighed by a danger of unfair
prejudice.
C. Testimony of Sergeant Kyle King and Defendant
Newman
Plaintiff argues that the testimony of Defendants’
expert Sergeant Kyle King was based on false facts and
that Defendant Newman perjured himself after
listening to the testimony of other witnesses. DE 237 at
15–17. Plaintiff states that Sergeant Kyle King’s
powerpoint reconstruction presentation was based on
Defendant Newman’s prior statements that Mr. Hill
had raised his gun about waist level when it was fired.
Id. at 16. Plaintiff notes that Defendant Newman was
present for the testimony of Plaintiff’s expert, Dr.
William Anderson, who “testified that it is unlikely
that Mr. Hill raised a gun ‘anywhere near’ Deputy
Lopez based upon the positioning of the hand relative
to Mr. Hill’s abdomen wound.” Id. (citing Trial Tr., May
21, 2018, at 26:19–24). According to Plaintiff,
Defendant Newman materially changed his testimony

App. 35
after hearing the testimony of other witnesses;
Defendant Newman demonstrated at trial that Mr. Hill
only raised his arm in a slightly upward direction,
which is in conflict with his prior statements that Mr.
Hill had raised the gun waist level. DE 237 at 17.
Plaintiffs state that, because of the change in
Defendant Newman’s testimony, Sergeant King’s
powerpoint was not an accurate reconstruction but the
“Defendants still called Sgt. King to testify as an expert
witness at trial even though his testimony was limited
to the admittedly inaccurate reconstruction of the
subject incident.” Id.
Defendants respond that, even assuming Defendant
Newman’s testimony at trial differed from his previous
deposition testimony, Plaintiff’s remedy was to
impeach Defendant Newman with his prior
inconsistent statements at trial, not to seek a new trial.
DE 247 at 9. Defendants also state that “to the extent
Plaintiff takes issue with some of the information Sgt.
King received in formulating his opinions, the
appropriate way to address that was in crossexamination of the witness. Plaintiff had that
opportunity.” Id. at 10.
Plaintiff replied that she did not have an
opportunity to cross-examine Sergeant King on the fact
that his reconstruction was not an accurate
reconstruction of the circumstances of the shooting
because Sergeant King testified before Defendant
Newman and it was Defendant Newman’s changed
testimony that showed that Sergeant King’s
reconstruction was inaccurate. DE 251 at 10.

App. 36
The Court finds that Defendant Newman and
Sergeant King’s testimony did not prejudice Plaintiff’s
rights and that their admission does not merit a new
trial. Defendants are correct that Plaintiff’s remedy for
any changes in Defendant Newman’s testimony was
through impeachment. If Defendant Newman had
previously stated that Mr. Hill had raised the gun
higher than he demonstrated during the trial, Plaintiff
should have impeached him with his prior inconsistent
statements. Certainly every change in a witness’s
testimony cannot lead to a new trial.
Similarly, there was nothing in Sergeant King’s
testimony that prejudiced Plaintiff’s rights. Defendants
did not bring up Sergeant King’s powerpoint on direct
examination; rather, Plaintiff did on her crossexamination. Trial Tr., May 22, 2018, at 41:2–7. And,
Sergeant King testified that his conclusions were based
on photographs, physical evidence, and statements,
including Defendant Newman’s pre-trial statements.
Id. at 28:12–17. Sergeant King’s testimony did not even
delve into where the gun was pointing when Defendant
Newman shot. His testimony was simply that he did
not see any inconsistencies when reviewing the
evidence with the deputies’ statement about what
happened. Id. at 29:17–23. During closing arguments,
Plaintiff’s counsel said:
Sergeant Kyle King came in with opinions
and a PowerPoint presentation that didn’t get
presented, I guess, or he had prepared, and
admitted that PowerPoint presentation, or
multiple photos like this, that he got it from
evidence directly submitted by St. Lucie County

App. 37
Sheriff’s Office, nobody else, he didn’t do any
independent.
I asked him if he did a PowerPoint about the
facts that the jury heard, you guys, how the arm
could avoid being hit, blood spattering, DNA on
the gun, no. How he put it back in the back
pocket with all this going on, no.
Trial Tr., May 23, 2018, at 117:15–24. Plaintiff raised
her concern with the weight the jury should give
Sergeant King’s testimony and made clear, as Sergeant
King had on the stand, that his conclusions were based
solely on the evidence that was given to him from the
St. Lucie County Sheriff’s Office. Id. The jury was able
to consider what weight to give Sergeant King’s
testimony and, if the jury believed it conflicted with
other testimony they heard, the jurors were free to
reject it. There was nothing in Sergeant King or
Defendant Newman’s testimony that prejudiced
Plaintiff’s rights and Plaintiff is not entitled to a new
trial on this ground.
D. Jury’s Verdict
Plaintiff argues that “[t]he inconsistent and legally
improper verdict indicates juror confusion over the jury
instructions and verdict form. In particular, there
appeared to be confusion over the jury instructions’
explanation of awardable damages and how those
damages are apportioned on the verdict form.” DE 237
at 17. Plaintiff takes issue with the fact that the Court
did not read the title to each jury instruction when the
Court charged the jury. Id. at 18. Plaintiff argues that
the result of the Court not reading the titles of the jury

App. 38
instructions resulted in jury confusion; this caused the
jury “to make a finding that only nominal damages
were appropriate or sought to punish the Plaintiff and
awarded an amount unsupported by evidence. The
issue here is that nominal damages only pertained to
the federal civil rights claim, not the negligence claim.”
Id. (emphasis in original). Plaintiff states that “[t]he
other logical explanation for the jury’s inconsistent
verdict was that it intended to be punitive.” Id. at 19.
Defendants respond that the jury instructions
properly stated the law and that Plaintiff waived any
argument that the Court erred in failing to read the
title pages of the jury instructions by not objecting after
the Court read the instructions. DE 247 at 10–11.
Defendants note that Plaintiff’s argument that the
verdict may have been intended to be punitive is mere
speculation. Id. at 11. Defendants also note that “[i]n
any event, the jury’s decision as to Plaintiff’s damages
was ultimately, in practical effect, irrelevant based on
its finding that Mr. Hill was intoxicated and that as a
result of his intoxication was more than 50% at fault
for his injuries entitling the Sheriff to judgment as a
matter of law pursuant to F.S. § 768.36.” Id. at 12.
The Court agrees with Defendants. First, the Court
rejects Plaintiff’s argument that the fact that the Court
did not read the title pages of the jury instructions
prejudiced Plaintiff. The Court notes that, following the
Court’s reading of the jury instructions, the Court
asked each party if the Court had read the instructions
as discussed in the charging conference. Both parties
agreed that the Court had. Trial Tr., May 23, 2018, at
96:23–97:9 (“From the Plaintiff, did the Court give the

App. 39
instructions as discussed in the conference? MS.
HINES: Yes, your Honor. THE COURT: Are there any
objections that have not already been made as a matter
of record? MS. HINES: No, your Honor. THE COURT:
Defense, has the Court read the instructions discussed
in the conference? MR. BRUCE JOLLY: Yes. THE
COURT: Are there any objections that have not been
made on the record? MR. BRUCE JOLLY: No, your
Honor.”). If Plaintiff thought that the Court should
have read the title to the jury instructions, Plaintiff
should have raised the objection at that time so that
the Court could have remedied Plaintiff’s objection at
that time. The Court also notes that each juror received
a copy of the jury instructions that included the title of
each instruction. Accordingly, the jurors could have
referred to the title of each jury instruction if they were
confused about what damages instruction applied to
which claim.
Second, the Court notes that the verdict was not
legally inconsistent and any confusion the jury may
have had regarding the damages portion is legally
irrelevant. Legally irrelevant, in this context, means
that the jury’s damages calculation is without practical
effect because of the jury’s determination as to liability
and, accordingly, does not bear on the Court’s decision
regarding Plaintiff’s Motion for New Trial. In stating
that the jury’s damage award is legally irrelevant, the
Court is expressing no opinion about the damages
award. The Court is simply stating that the jury’s
award has no impact on the legal issues before the
Court because of the jury’s determinations as to
liability; that is, the jury’s determination about who
was at fault— specifically the jury’s determination that

App. 40
Mr. Hill was intoxicated and more than 50% at fault—
renders any determination that the jury made as to
damages irrelevant as to Plaintiff’s Motion for New
Trial.
Plaintiff states that the jurors were confused
because they thought nominal damages were available
for the negligence claim, when in fact the instruction
on nominal damages applied only to the § 1983 claim.
Even if the jurors were confused about the availability
of nominal damages in a negligence claim, their
confusion is legally irrelevant because their conclusions
that Mr. Hill was under the influence of alcoholic
beverages and that he was more than 50% at fault
prevented Plaintiff from collecting any damages for the
negligence claim. See Fla. Stat. § 768.36. The verdict
form could have instructed the jurors that if they found
that Mr. Hill was intoxicated and 50% at fault for the
incident and his injuries, they need not reach the
question of damages. Accordingly, any confusion they
had about the availability of nominal damages does not
materially impact their verdict because of the jury’s
determination as to liability and does not render the
verdict inconsistent or flawed.
Third, the Court notes that speculation regarding
why the jury arrived at their verdict cannot be the
basis for a new trial. Specifically, the jury instructions
instructed that nominal damages were available for the
§ 1983 if the jur y found that:
(a) Plaintiff has submitted no credible evidence
of injury; or (b) Plaintiff’s injuries have no
monetary value or are not quantifiable with any
reasonable certainty; or (c) Defendant

App. 41
Christopher Newman used both justifiable and
unjustifiable force against Gregory Vaughn Hill,
Jr. and it is entirely unclear whether Gregory
Vaughn Hill Jr.’s injuries resulted from the use
of justifiable or unjustifiable force.
DE 224 at 13. During closing arguments, Defendants
pointed the jurors to (c). Defendants’ counsel said:
I would have you focus on C, Defendant
Christopher Newman used both justifiable and
unjustifiable force against Gregory Vaughn Hill,
Jr. and it is entirely unclear whether Gregory
Vaughn Hill, Jr.’s injuries resulted from the use
of justifiable or unjustifiable force. Again, it
pains me to talk about damages, and ultimately
your verdict has to be unanimous. If you went
down the road of damages, I would submit to
you that that would be the way to go if there was
any confusion about whether or not Deputy
Newman should have used deadly force on Mr.
Hill.
Trial Tr., May 23, 2018, at 159:25–160:9. Given the
Defendants’ closing arguments and emphasis on part
(c) of the nominal damages jury instruction, the jurors,
in awarding nominal damages on the negligence claim,
may have been indicating that they thought it was
unclear if Defendant Newman used justifiable or
unjustifiable force. This conclusion would not have
been inconsistent with their conclusion that Mr. Hill
was 99% at fault and that Sheriff Mascara in his
official capacity, through Defendant Newman, was 1%
at fault for Mr. Hill’s death. In reading the jury’s
verdict with this background in mind, the jurors could

App. 42
have been saying that they believe that Defendant
Newman used both justifiable and unjustifiable force
against Mr. Hill and that the jury could not determine
if Mr. Hill’s injuries were the result of the use of
justifiable or unjustifiable force. This would not be the
punitive verdict that Plaintiff speculates the jurors
intended in awarding such a low amount of damages.
Speculation aside, the Court notes that it does not
matter legally whether the jurors were intending to be
punitive or were stating that they thought it was
unclear whether Defendant Newman used justifiable or
unjustifiable force. The jurors should not have even
reached the damages section of the verdict form, which
is Plaintiff’s sole basis to argue that the jurors were
confused. Even if the jurors were confused about the
amount of damages they could award, their damages
award is legally irrelevant; their conclusions were that
Defendant Newman did not use excessive force and
that Mr. Hill was under the influence of alcoholic
beverages to the extent that his normal faculties were
impaired and, that as a result of the influence of such
alcoholic beverage, Mr. Hill was more than 50% at fault
for this incident and his resulting injuries. Accordingly,
Plaintiff was not entitled to any damages and any juror
confusion regarding the type of damages they could
award for each claim is immaterial and not grounds for
a new trial.
Although the damages verdict was legally
irrelevant, one last point bears discussion, even though
it has no impact on the Court’s decision. The jury’s
award of $1.00 each for funeral expenses and to each of
Mr. Hill’s three minor children was not supported by

App. 43
Plaintiff’s evidence as to damages. Ms. Bryant’s
undisputed testimony was that the funeral expenses
for Mr. Hill were $11,352. Trial Tr., May 17, 2018, at
259:6–12. All three of Mr. Hill’s children testified about
the relationships they had with their father, including
that he took them fishing and that they missed him.
Test. of G.H., Trial Tr., May 21, 2018, at 99:25–100:7;
Test. of A.H., id., at 101:24–102:25; Test. of D.H., id. at
111:2–20. The Court notes this because of the
emotional nature of the case and the truly tragic
outcome of the events of that day. Ultimately, however,
any evidence regarding the damages suffered by Mr.
Hill’s children or the funeral expenses incurred by
Plaintiff are legally irrelevant and do not show any
flaw in the jury’s verdict or any reason for this Court to
grant a new trial.
E. The Weight of the Evidence
Plaintiff argues that the jury’s verdict was against
the clear weight of the evidence. Plaintiff points to the
following evidence that she argues shows that the jury
verdict was against the clear weight of the evidence:
Roy Bedard, an expert on police practices,
testified extensively on proper police protocol
when a subject is behind an opaque surface. He
also testified specifically about the troubling
paradox created by discrepancies between
Defendant Christopher Newman’s testimony
and the physical evidence presented. (Trial Tr.
Vol. 2, 181-182, 16). Dr. William Anderson, a
trained Medical Examiner, gave testimony
regarding Mr. Hill’s gunshot wounds and the
order in which they were likely sustained. Dr.

App. 44
Anderson’s testimony supported that of Earl
Ritzline of the Indian River Crime Lab who
testified about the DNA results which revealed
that none of Mr. Hill’s DNA was conclusively
found on the KelTec firearm recovered from his
back pocket. Furthermore, several independent
eye witnesses located directly across the street
from where the shooting occurred testified that
they never saw Mr. Hill holding a gun in his
hand.
DE 237 at 19–20. Plaintiff states that, based on this
evidence, no rational jury could have found that
Defendant Newman’s use of force against Mr. Hill was
not excessive in violation of 42 U.S.C. § 1983 or that
Mr. Hill was 99% at fault for his own death. Id. at 20.
Defendants respond that “Plaintiff’s cherry picking
of the evidence the jury heard which was favorable to
her and suggesting that the jury ignored it does not
entitle her to a new trial. Indeed, the jury was entitled
to reject Plaintiff’s evidence if it were unrebutted if it
chose to.” DE 247 at 13 (citations omitted).
The Court agrees with Defendants. A new trial
should not be granted “unless, at a minimum, the
verdict is against the great—not merely the
greater—weight of the evidence.” Pensacola Motor
Sales, Inc. v. E. Shore Toyota, LLC., 684 F.3d 1211,
1231 (11th Cir. 2012) (citation omitted). Although the
Court is permitted to weigh the evidence, it must be
with this standard in mind. See Watts v. Great Atl. &
Pac. Tea Co., Inc., 842 F.2d 307, 310 (11th Cir. 1988)
(“In ruling on a motion for new trial, the trial judge is
permitted to weigh the evidence, but to grant the

App. 45
motion he must find the verdict contrary to the great,
not merely the greater, weight of the evidence.”).
The jury’s verdict was not against the great weight
of the evidence. The evidence about whether or not Mr.
Hill had the gun in his hand when he opened the
garage door was mixed. Plaintiff states that “several
independent eye witnesses located directly across from
the street from where the shooting occurred testified
that they never saw Mr. Hill holding a gun in his
hand.” DE 237 at 20. This is a misleading statement.
The only witness who said that she could see Mr. Hill
and that he was not holding a gun was Mr. Hill’s
daughter, Destiny. See Trial Tr., May 21, 2018, at
109:2–5. All of the other witnesses who were across the
street testified that they did not see Mr. Hill or his
hands at all; thus, they could not tell if he was holding
a gun. See, e.g., Test. of Juanita Wright, Trial Tr., May
17, 2018, at 234:17–20 (“Q. And I understood your
testimony, you were asked if you ever saw Mr. Hill
with a gun. It is accurate to say you never saw Mr. Hill
at all, correct? A. That day, no.”); Test. of Donna
Hellums, Trial Tr., May 17, 2018, at 240:23–25 (“Q.
You were asked on direct if you saw Mr. Hill with a
gun. You never saw Mr. Hill at all, correct? A. I never
saw Mr. Hill at all.”); Test. of Stefani Scheutz, Trial
Tr., May 18, 2018, at 13:21–14:3 (“Q. And therefore, for
any instant during this, I think I know the answer, but
did you see anybody holding up a gun or – from inside
the garage, holding up a gun or bringing the gun in the
direction of anybody outside the garage? A. No. I
couldn’t see anyone from my angle at all. If there was
-- I could not see inside the garage and it was also – it
happened very fast to where I -- at that time I sped my

App. 46
car away, I wasn’t looking at all.”). And, both
Defendant Newman and Deputy Lopez testified that
they saw Mr. Hill holding a gun. Test. of Christopher
Newman, May 22, 2018, at 136:17–19; Test. of Edward
Lopez, Trial Tr., May 18, 2018, at 208:22–25. The great
weight of the evidence did not show that Mr. Hill did
not have the gun in his hand; the jury was entitled to
reject Plaintiff’s evidence that Mr. Hill did not have the
gun in his hand when he opened the garage door and
believe the deputies testimony that Mr. Hill did have a
gun in his hand when he opened the garage door.
Additionally, the jury was entitled to credit Deputy
Lopez and Defendant Newman’s testimony that Mr.
Hill made a movement with the hand holding the gun,
causing Defendant Newman to discharge his weapon.
See Test. of Christopher Newman, May 22, 2018, at
137:4–7; Test. of Edward Lopez, Trial Tr., May 18,
2018, at 208:22–209:5. This could lead the jury to
conclude that the force used by Defendant Newman
was not excessive. Accordingly, the verdict was not
against the great weight of the evidence and Plaintiff
is not entitled to a new trial based on the weight of the
evidence.
Again, the Court notes that its analysis regarding
the weight of the evidence does not speak to the
damages aspect of the jury’s verdict. Because the jury’s
verdict was not against the great weigh of the evidence
as to liability, the Court is not commenting on the
jury’s damages award because the award was a nullity
in practical effect.

App. 47
F. The Cumulative Effect
Plaintiff argues that the cumulative effects of the
errors and evidentiary rulings identified in her Motion
for a New Trial demonstrate that Plaintiff’s substantial
rights were prejudiced and, accordingly, Plaintiff is
entitled to a new trial. DE 237 at 20. The Court does
not find that any of the grounds raised in Plaintiff’s
motion, or their cumulative effect, prejudiced Plaintiff’s
substantial rights. Accordingly, the cumulative effect of
the grounds raised in Plaintiff’s motion do not entitle
Plaintiff to a new trial.
III.

CONCLUSION

It is therefore ORDERED AND ADJUDGED that
Plaintiff’s Motion for New Trial [DE 237] is DENIED.
DONE and ORDERED in Chambers, West Palm
Beach, Florida, this 14th day of August, 2018.
/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

App. 48

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 2:16cv14072-ROSENBERG/LYNCH
[Filed: May 31, 2018]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate of
)
GREGORY VAUGHN HILL, JR.,
)
)
Plaintiff,
)
)
vs.
)
)
SHERIFF KEN MASCARA in his official
)
Capacity as Sheriff of St. Lucie County,
)
and CHRISTOPHER NEWMAN,
)
an individual,
)
)
Defendants.
)
__________________________________________)
FINAL JUDGMENT
THIS CAUSE came before the Court pursuant to
the jury’s verdict rendered on May 24, 2018, during
trial of this matter. A Verdict was reached in favor of
the Defendants on all of the Plaintiff’s claims.
Therefore, it is

App. 49
ORDERED AND ADJUDGED that Plaintiff,
VIOLA BRYANT, as Personal Representative of the
Estate of GREGORY VAUGHN HILL, JR., take
nothing by this action and that Defendants, SHERIFF
KEN MASCARA in his official Capacity as Sheriff of
St. Lucie County, and CHRISTOPHER NEWMAN, an
individual, shall go hence without day.
This Court specifically reserves jurisdiction for the
taxation of costs upon proper application therefor. The
Clerk of Court shall CLOSE this case.
DONE and ORDERED in Chambers, Fort Pierce,
Florida, this 30th day of May, 2018.
/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
United States District Judge

Copies furnished to:
Counsel of record

App. 50

APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-13902-EE
[Filed: May 12, 2020]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate of
)
Gregory Vaughn Hill, Jr.,
)
)
Plaintiff - Appellant,
)
)
versus
)
)
SHERIFF KEN MASCARA, in his official
)
Capacity as Sheriff of St. Lucie County,
)
CHRISTOPHER NEWMAN,
)
an individual,
)
)
Defendants - Appellees.
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING
PETITION(S) FOR REHEARING EN BANC

AND

BEFORE: MARTIN, GRANT, and LAGOA, Circuit
Judges.

App. 51
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)

ORD-46

App. 52

APPENDIX E
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
FORT PIERCE DIVISION
Case No. 16-CV-14072-ROSENBERG
[Filed: June 28, 2018]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate
)
of Gregory V. Hill, Jr.,
)
)
Plaintiff,
)
)
vs.
)
)
SHERIFF KEN MASCARA, in his official )
capacity, as Sheriff of St. Lucie County,
)
and CHRISTOPHER NEWMAN,
)
as an individual,
)
)
Defendants.
)
__________________________________________)
Fort Pierce, FL
May 18, 2018
VOLUME 2
JURY TRIAL PROCEEDINGS
BEFORE THE HONORABLE ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

App. 53
APPEARANCES:
FOR THE PLAINTIFF:
JOHN M. PHILLIPS, ESQ.
NATASHIA D. HINES, ESQ.
KIRBY W. JOHNSON, ESQ.
Law Office of John M. Phillips
4230 Ortega Boulevard
Jacksonville, FL 32210
904-517-8903
*

*

*

[p. 149]
you.
When a law enforcement officer walks up on
somebody, perhaps if you watch TV they say this, they
say take your hands out of your pocket, puts your
hands on the steering wheel, hands, hands, hands.
They recognize if there is an imminent threat thereby,
they want to make sure it is not visually imminent.
They want to control the hands, know where they are
at all times. As a result, law enforcement officers, they
attend to -- that is the word we use, they attend to the
hands first and foremost.
BY MR. PHILLIPS:
Q. A gun was found in Mr. Hill’s possession, and we all
agree to that. We expect there is going to be evidence to
show that Mr. Hill was on some sort of probation.

App. 54
What significance does that have related to this
case?
A. No significance.
Q. Why not?
A. I think the fact that he was on probation, if he was
on probation, has to be calculated from the perspective
of the officers on the scene. What is it that they knew
they were responding to at the event, not what they
found out later.
Often, this can poison the review. If we bring in
data not available to the officer at the time and allow
it in the calculus of the decision-making, it corrupts our
understanding of what the law enforcement officers
did.
[p. 150]
In this case, my understanding is that they didn’t
know that he was on probation, and should not be
alarmed by the fact that the he had a gun because you
could have a gun in your house. I offer that no
relevance at all in the decision to address the weapon.
MR. PHILLIPS:
Honor.
THE COURT:
on that issue?
MR. PHILLIPS:

I am trying to wrap up, your
Did you want a limiting instruction
Yes.

THE COURT: Ladies and gentlemen, as you heard
from this witness, Mr. Hill was on probation. This
evidence is only admissible to the extent you think it is

App. 55
relevant to Mr. Hill’s actions on the day of the incident.
It is not to be considered for any other purpose.
BY MR. PHILLIPS:
Q. A police officer places himself in safety to avoid
having to make split-second decisions?
A. Yes, when possible.
Q. Why?
A. Law enforcement officers are challenged by many
circumstances, we have the phenomenon of suicide by
cop, and we are trained to that.
So, our basic understanding of dealing with
individuals is to reduce or eliminate the possibility of
having to shoot somebody. As part of the threat
assessment, we look for where
*

*

*

[p.206]
A. No.
Q. Does it matter how loud the music is?
A. After certain hours, yes.
Q. Does it matter how non church-worthy the lyrics
are?
A. It depends on where you are playing the music. If
you are playing it around kids, it could be.
Q. Does that make it an arrestable offense?

App. 56
A. No.
Q. Before the garage door opened, did you know Mr.
Hill?
A. No.
Q. Were you investigating Mr. Hill?
A. No.
Q. Did you have any reason to expect Mr. Hill was on
probation?
A. No.
Q. Intoxicated?
A. No.
Q. Doing anything wrong other than loud music?
A. No.
Q. Okay. What did you use to knock on what doors?
A. I used my hand to knock -- my right hand and I
knocked on the garage door.
Q. Did you see Deputy Newman use anything to knock
on doors? Do you know if he used his ASP or a
flashlight?
A. I believe he used his hand. I am not sure at this
time.
*

*

*

App. 57
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
FORT PIERCE DIVISION
Case No. 16-CV-14072-ROSENBERG
[Filed: June 28, 2018]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate
)
of Gregory V. Hill, Jr.,
)
)
Plaintiff,
)
)
vs.
)
)
SHERIFF KEN MASCARA, in his official )
capacity, as Sheriff of St. Lucie County,
)
and CHRISTOPHER NEWMAN,
)
as an individual,
)
)
Defendants.
)
__________________________________________)
Fort Pierce, FL
May 21, 2018
VOLUME 3
JURY TRIAL PROCEEDINGS
BEFORE THE HONORABLE ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

App. 58
APPEARANCES:
FOR THE PLAINTIFF:
JOHN M. PHILLIPS, ESQ.
NATASHIA D. HINES, ESQ.
KIRBY W. JOHNSON, ESQ.
Law Office of John M. Phillips
4230 Ortega Boulevard
Jacksonville, FL 32210
904-517-8903
*

*

*

[p. 73]
THE COURT: So
objection?

you

are

withdrawing the

MS. BARRANCO: Yes.
THE COURT: Okay.
BY MR. PHILLIPS:
Q. Do you know if your children heard it?
A. Yes.
Q. How do you know?
A. Because one morning I got up and Aryanna was on
her iPad and I said, what are you doing, and she said
she was reading something, and she asked me a
question about the case, and I said, how do you know
about that, let me see what you are reading. She said,
I put daddy’s name in different stories, and she read it
all.

App. 59
Q. Do you know for a fact if Mr. Hill was on probation
on January 14, 2014?
A. Yes.
Q. Was he?
A. No.
Q. Was there a probation order?
A. Yes.
Q. Would Mr. Hill have been more familiar with the
terms of that probation order?
A. Yes, he is the one that dealt with it.
Q. What was Mr. Hill doing trying to get off probation
in the last days, weeks of his life?
*

*

*

[p. 128]
witness out of turn, they called -- we heard from
Captain Chris Cicio last week.
This is the Defendant’s case. You may call your next
witness.
MR. GREGG JOLLY: Your Honor, Defense will call
Niles Graben.
THE COURT: Okay.

App. 60
NILES GRABEN, DEFENDANT’S WITNESS,
SWORN
THE WITNESS: First name is Niles, N-I-L-E-S,
last name Graben, G, as in George, R-A-B, bravo, E-N.
DIRECT EXAMINATION
BY MR. GREGG JOLLY:
Q. Good afternoon, Mr. Graben. Are you employed?
A. Yes, by the State of Florida Department of
Corrections, Probation and Parole Services.
Q. How long have you been working in that capacity
for the State of Florida?
A. More than 29 years.
Q. Would you be working in that capacity in January
2014?
A. Yes.
Q. Have you had an opportunity to review the office’s
file as to a person named Gregory Hill?
A. Yes, I have.
Q. Did you say you had an opportunity to review it?
A. That is correct.
[p. 129]
Q. In review of that file, did the records that you
reviewed reflect that Mr. Hill was on probation on
January 14, 2014?

App. 61
A. That is correct.
Q. Was one of the prohibitions as a part of that
probation that Mr. Hill was not permitted to drink any
alcohol?
A. That is correct, probation prohibited consumption of
alcohol.
Q. As another condition of his probation, was Mr. Hill
also prohibited from possessing a firearm?
A. That is correct, he was prohibited to own, possess or
carry a firearm.
Q. Would a person who is found to have violated either
of those conditions face consequences for that?
A. Yes.
Q. Do you know if Mr. Hill’s probation was ever
terminated?
A. Yes.
Q. When was it terminated?
A. Probation was terminated by judicial signature on
January 21, 2014, with a nunc pro tunc date back to
January 16, 2014.
Q. And why was it terminated at that time, if you
know?
A. It was known to the department at that time that
Mr. Hill was deceased.
Q. Was that done to clear your files?

App. 62
A. It is an administrative function where the
department
[p. 130]
notifies the Court of the passing of a supervision, and
there is a State form which the judge signs it and
administratively terminates the probation.
MR. GREGG JOLLY: Your Honor, may I have a
moment, please?
THE COURT: Yes.
MR. GREGG JOLLY: No more questions.
THE COURT: Any cross-examination?
MR. PHILLIPS:

Yes, your Honor.

CROSS-EXAMINATION
BY MR. PHILLIPS:
Q. How are you?
A. Good. How are you?
Q. We haven’t met?
A. No.
Q. Did you have a deposition taken in this case?
A. No.
Q. Do you have your file with you?
A. Yes.
Q. Are you an attorney?

App. 63
A. No.
Q. Are you a judge?
A. No.
Q. Ever been either?
A. No.
[p. 131]
Q. Go to law school?
A. I actually did take a year in graduate school, public
administration law school.
Q. Would you say Mr. Hill was not violated in this
term of probation?
A. That is correct.
Q. Mr. Hill referred to his probation officer as a
woman. Can you explain that?
A. Ms. Gibson was the probation officer assigned to
supervise Mr. Hill. In January 2014, I was supervisor
of the intake office where Ms. Gibson worked and I was
in charge of any paperwork or electronic case notes
reported by the department.
Q. Is it fair Ms. Gibson would have a more active
relationship with Mr. Hill?
A. Yes.
Q. You probably would have not?
A. Correct.

App. 64
Q. Do you have that probation order?
A. Yes.
Q. Would you pull it out, please? You have it.
What was provision number 20?
A. The language in number 20 reads: As a special
condition, your probation automatically will terminate
upon successfully completing one year of supervision.
Q. A special condition?
[p. 132]
A. Yes.
Q. It says automatically?
A. Automatically upon successfully completing one
year of probation. His reason -- the reason it is was not
terminated was court costs were outstanding. By
policy, we cannot terminate when court ordered costs
are outstanding.
Q. Yes, sir. What date was that order completed?
A. The order was signed January 9, 2013, nunc pro
tunc to January 3rd, 2013.
Q. Nunc pro tunc means retroactive to, back dated?
A. Right.
Q. So, a year from January 3, 2013 would be January
3, 2014?
A. That is correct.

App. 65
Q. Okay. Have you ever violated somebody for drinking
at home when no harm was caused?
A. Our department has.
Q. Is violation of probation in and of itself grounds for
deadly force?
MR. GREGG JOLLY: O b j e c t i o n , y o u r H o n o r ,
relevance.
THE COURT: I am going to sustain.
MR. PHILLIPS:

Okay.

BY MR. PHILLIPS:
Q. Do you have any idea whatsoever about any
conversations Mr. Hill would have had with Ms. Gibson
in January of 2014?
A. Yes, our department includes some electronically
stored
[p. 133]
case notes that record the visit of Mr. Hill to the
Probation Office on January 3, 2014, at approximately
12:30 p.m.
Q. The one year anniversary?
A. That is correct.
MR. PHILLIPS:

No further questions.

THE COURT: Anything on redirect?
MR. GREGG JOLLY: Just briefly, your Honor.

App. 66
REDIRECT EXAMINATION
BY MR. GREGG JOLLY:
Q. Mr. Graben, you were asked about condition
number 20 in the probation order?
A. That is correct.
Q. And do you explain to probationees that one of the
conditions to successfully complete one year of
supervision is to make sure that your court costs are
paid?
A. That is part of the instruction process.
MR. GREGG JOLLY: No more questions, your
Honor.
THE COURT: Okay, all right, thank you very
much, you may step down.
Defense may call your next witness.
MS. BARRANCO: Thank you, your Honor. At this
time Defense would call sergeant Edgar Lebeau to the
stand.
EDGAR LEBEAU, DEFENDANT’S WITNESS,
SWORN
THE WITNESS: My name is Sergeant Edgar
Lebeau, L-E-B-E-A-U.
*

*

*

App. 67
[p. 171]
evidence in light of a loud music investigation?
MS. BARRANCO: Objection, relevance.
THE COURT: What is the relevance?
MR. PHILLIPS:

We withdraw it.

THE COURT: Okay.
BY MR. PHILLIPS:
Q. How forcefully would an officer have to hit the door
to cause a dent?
A. Depends on the door, but I would imagine with
some sort of force.
Q. Another thing that it appears you did is look into
Mr. Hill’s probation at the time; is that fair?
A. Yes.
Q. Do you know if the probation order had been
fulfilled days before and hadn’t been filed yet?
A. No.
MS. BARRANCO: Objection, your Honor, misstates
the evidence.
MR. PHILLIPS:
your Honor.

The jury can draw an inference,

THE COURT: Restate the question.

App. 68
BY MR. PHILLIPS:
Q. Do you know when Mr. Hill’s probation ended by
order?
A. No, sir, I do not.
Q. Fair enough.
*

*

*

App. 69
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
FORT PIERCE DIVISION
Case No. 16-CV-14072-ROSENBERG
[Filed: June 28, 2018]
__________________________________________
VIOLA BRYANT, as Personal
)
Representative of the Estate
)
of Gregory V. Hill, Jr.,
)
)
Plaintiff,
)
)
vs.
)
)
SHERIFF KEN MASCARA, in his official )
capacity, as Sheriff of St. Lucie County,
)
and CHRISTOPHER NEWMAN,
)
as an individual,
)
)
Defendants.
)
__________________________________________)
Fort Pierce, FL
May 22, 2018
VOLUME 4
JURY TRIAL PROCEEDINGS
BEFORE THE HONORABLE ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

App. 70
APPEARANCES:
FOR THE PLAINTIFF:
JOHN M. PHILLIPS, ESQ.
NATASHIA D. HINES, ESQ.
KIRBY W. JOHNSON, ESQ.
Law Office of John M. Phillips
4230 Ortega Boulevard
Jacksonville, FL 32210
904-517-8903
*

*

*

[p. 188]
A. I don’t understand your question.
Q. Fair. The general feeling that because you are a law
enforcement officer, that you may have some danger
and do have danger, no doubt about it, that doesn’t -that general feeling doesn’t justify use of force?
A. I’m still not following you. I don’t understand what
you are trying to say.
Q. Okay. That is exactly how I want to do this. Let me
back up, that is my fault.
We talked about there is danger in law enforcement.
A. Yes, sir.
Q. And I guess I will break it down this way, just
because there is danger in law enforcement, doesn’t
mean law enforcement officers automatically get to use
force?

App. 71
A. No. We are justified to use force based on the
parameters set by the State of Florida.
Q. Okay. We live in a country with over 300 million
guns and 300 million people. You are probably used to
seeing guns?
A. Yes, sir.
Q. That is an American right?
A. Yes, sir, it is.
Q. So, seeing a gun doesn’t necessarily mean you get to
use force in response to that gun?
A. No, sir, it does not.
Q. Okay. There has to be more than a general feeling,
not a
*

*

*

[p. 191]
A. I believe it was Avenue Q.
Q. Sorry, Avenue Q. You didn’t know who lived in the
house on Avenue Q?
A. I had no idea.
Q. You didn’t know if they were armed or unarmed?
A. I had no idea.
Q. You were investigating loud music?

App. 72
A. Yes, sir.
Q. Not probation violations?
A. No, sir.
Q. Not intoxication?
A. No, sir.
Q. Not whether probation had expired a week before or
still had a week to go, nothing like that, you were there
because of a loud music complaint?
A. Yes, sir.
Q. You told me the signal 22 was -- is the signal you
get for loud or vulgar music?
A. No. Signal 22 was a disturbance, vulgar music was
by dispatch.
Q. Generally, loud music, particularly loud music or
vulgar music, was not a misdemeanor, just a
complaint?
A. Yes, sir.
Q. Okay. In the United States -- again putting
probation violation possibilities aside -- are people
allowed in America
[p. 192]
to open the door, their doors with a firearm in their
hand?
A. You are allowed to possess a firearm in your home
if you are legally allowed to.

App. 73
Q. Can you open the door with one?
A. Nothing would stop you.
Q. Okay. And that is something you must take into
account every single time you knock on the door, right?
A. Yes, sir.
Q. It doesn’t matter if it is a white neighborhood, black
neighborhood, poor neighborhood or rich neighborhood,
that would be illegal, to shoot someone if they opened
the door with a gun?
A. If there was no other action with it, yes.
Q. That would be a violation of their civil rights?
A. If there were no other actions, yes.
Q. The CAD we have been through, we heard two
separate versions of it. The time I played had
segments, had an entry time and exit time, and the one
today is a big piece, and we have seen the written
transmission.
Does that describe the three iterations of the CAD
we heard?
A. Yes, sir.
Q. And the times on there, we don’t know if they are
accurate. I assume they are accurate.
A. It is whatever time the EEOC has dispatched in the
*

*

*

